TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Reengineering Individual Tax Return
                         Processing Requires Effective
                               Risk Management



                                        December 7, 2009

                              Reference Number: 2010-20-001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           December 7, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management (Audit # 200920029)

 This report presents the results of our review of the adequacy of the Internal Revenue
 Service’s (IRS) Modernized Taxpayer Account Program Integration Office start-up activities to
 manage the transition of taxpayer account processing to a new modernized environment. This
 review was conducted in response to a request from the Chief Technology Officer for us to
 assess the Modernized Taxpayer Account Program Integration Office start-up activities and
 governance processes. Further, we plan to provide periodic assessments of this program’s
 progress and accomplishments.

 Impact on the Taxpayer
 The current Customer Account Data Engine (CADE) includes applications for daily processing,
 settlement, maintenance, refunds processing, and issue detection for taxpayer accounts and return
 data. In August 2008, the IRS Commissioner established the Modernized Taxpayer Account
 Program Integration Office to manage the transition of individual taxpayer account processing to
 a new modernized environment. To successfully complete the current modernization effort, IRS
 executives will need to effectively manage Program risks and maintain Program continuity.
 Once completed, the new modernization environment should allow the IRS to more effectively
 and efficiently update taxpayer accounts, support account settlement and maintenance, and
 process refunds on a daily basis, which will contribute to improved service to taxpayers.
                             Reengineering Individual Tax Return Processing
                                 Requires Effective Risk Management




Synopsis
The Modernized Taxpayer Account Program Integration Office has taken the lead in
transitioning the current individual income tax processing environment consisting of multiple
computer systems into a single environment for processing tax returns, payments, and other
transactions that affect individual taxpayer accounts. In August 2008, the Program Integration
Office began working in conjunction with the IRS business owners to evaluate several
approaches to accomplish its goal. It decided to integrate elements from both the existing
Individual Master File 1 and current CADE processes into a new Customer Account Data Engine
Strategy. 2 The proposed plan incrementally transfers taxpayer accounts from the current
Individual Master File and CADE processing environments to a new Customer Account Data
Engine relational database. The first steps involve creating the new database and converting the
Individual Master File into a daily processing environment.
The Program Integration Office and the IRS business owners have made significant progress in
developing conceptual models for 1) the current processing environment, 2) the process that will
be used to transition to a modernized environment, and 3) the future-state business processes.
Upon completion, individual tax account processing applications will access and update taxpayer
data using the new relational database. The relational database will be the single system of
record for all individual taxpayer accounts. Accounts will be updated and settled within 24 hours
to 48 hours, and subsequently synchronized with other systems. The system will provide
financial management services for all individual taxpayer accounts, and mechanisms will be in
place to ensure data privacy and integrity.
The Program Integration Office expects the new Customer Account Data Engine to reduce risks
and costs that exist from operating in two environments for individual taxpayer account
processing. It also plans to modernize the individual taxpayer account processing environment
to be consistent with private financial institutions, including appropriate security and privacy
standards.
To enable the successful implementation of the new Customer Account Data Engine Strategy,
the Program Integration Office must effectively manage the risks it has identified. The Program
Integration Office solution teams, working in conjunction with the IRS business owners, have
identified risks that must be managed to allow the success of the new Customer Account Data
Engine Strategy. The solution teams have prepared management strategies for each high-level
risk. Following are some challenges that we believe the Program Integration Office must
address to effectively manage these risks.

1
  See Appendix VIII for a glossary of terms.
2
  The new Customer Account Data Engine Strategy refers to Modernized Taxpayer Accounts Program plans to
transition the Individual Master File and current CADE database to a modernized environment. Current CADE
refers to the database which started processing some individual tax accounts in Calendar Year 2004.
                                                                                                            2
                          Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management



   •   Ensuring support for the modernization efforts from other critical IRS organizations.
   •   Implementing a governance structure for the Program Integration Offices to provide
       oversight and direction for the implementation of the new Customer Account Data
       Engine Strategy.
   •   Employing enough competent technical resources to modify the Individual Master File
       and current CADE programs, while continuing to keep the current system operating.
   •   Developing a strategy for addressing potential questions and concerns by Congress, the
       IRS Oversight Board, and other stakeholder groups about the refocused Modernization
       plans and transitional activities.
   •   Developing contingency plans in the event that the new Customer Account Data Engine
       Strategy cannot be fully implemented.
Successful completion of the new Customer Account Data Engine Strategy will require a
long-term commitment from both current and future IRS executives to maintain the
modernization direction and goals. Past attempts by the IRS to modernize its computer systems
have been affected by changes introduced by new senior level executives. While some changes
are inevitable due to evolving technologies and changing environments, consistency in Program
direction and goals is critical for successful completion. To promote Program continuity, senior
executives should continue to use the Information Technology Modernization Vision and
Strategy framework as a baseline for Modernization Program decision making. The Information
Technology Modernization Vision and Strategy, if adhered to, provides executives the ability to
achieve the current and planned modernization plans.

Response
The Chief Technology Officer responded with appreciation for our acknowledgement that the
Modernization and Information Technology Services organization Program Integration Office
and the IRS business owners have made significant progress in developing conceptual models
for the current processing environment, the process to transition to the modernized environment,
and the future-state business processes. The Chief Technology Officer further noted that the
report assessment was valid and that the detailed program plan, being developed as we suggested
with the Modernization Vision and Strategy framework, may result in adjustments to target
deliverables and time periods including elimination of redundant processing systems.
Management’s complete response to the draft report is included as Appendix IX.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
Inspector General for Audit (Security and Information Technology Services), at
(202) 622-5894.

                                                                                                    3
                                   Reengineering Individual Tax Return Processing
                                       Requires Effective Risk Management




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Significant Progress Has Been Made In Developing Conceptual
          Models for Future Individual Income Tax Processing .................................Page 3
          Identified Risks Must Be Effectively Managed for Successful
          Implementation of the New Customer Account Data Engine Strategy ........Page 7
          Challenges Facing the New Program Integration Office
          Must Be Addressed .......................................................................................Page 7
          A Long-Term Commitment Is Needed by Current and Future
          Executives to Ensure Modernization Program Success................................Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 15
          Appendix V – Current Processing Environment ..........................................Page 17
          Appendix VI – Transition States...................................................................Page 19
          Appendix VII – Risks Facing the Modernized Taxpayer Account
          Program Integration Office ...........................................................................Page 22
          Appendix VIII – Glossary of Terms .............................................................Page 26
          Appendix IX – Management’s Response to the Draft Report ......................Page 30
       Reengineering Individual Tax Return Processing
           Requires Effective Risk Management




               Abbreviations

CADE     Customer Account Data Engine
IRS      Internal Revenue Service
                                 Reengineering Individual Tax Return Processing
                                     Requires Effective Risk Management




                                                 Background

In Calendar Year 1999, the Internal Revenue Service
(IRS) and the PRIME Contractor 1 initiated the Customer
Account Data Engine (CADE) project and started work                The original CADE project
                                                                 planned to build a modernized
on the business vision and the operations concept. Early        database to replace the existing
on, their work confirmed that the IRS architecture had                Individual Master File
two major limitations that needed to be overcome—               processing systems, which are
speed and accuracy. The current processing                       the IRS’ official repositories of
environment needs up to 2 weeks to update taxpayer tax                taxpayer information.
accounts, and multiple, non-synchronized databases
foster an environment of inconsistent data reporting to
taxpayers.
The current CADE includes applications for daily processing, settlement, maintenance, refunds
processing, and issue detection for taxpayer accounts and return data. Original plans called for
the current CADE to be deployed in five releases. Each release would relate to a specific
taxpayer segment with implementation phased in over a period of 6 years. The completion of the
CADE implementation would result in the replacement of the Individual Master File, allowing
the IRS to conduct business more efficiently and effectively. Specifically:
       •   IRS employees would have online access to taxpayer data that are accurate as of the last
           24 hours.
       •   IRS employees would be able to post transactions and update taxpayer account and return
           data online.
       •   Weekly Individual Master File processing at the Martinsburg Computing Center would
           be replaced by daily processing.
       •   Accounts for electronically filed returns would be processed and settled within 48 hours
           of receipt by IRS systems.
In Calendar Year 2007, the IRS conducted an extensive technical analysis on the future of the
current CADE, the Account Management Services system, and the Integrated Data Retrieval
System. As part of this analysis, the IRS evaluated its long-term modernization goals and
objectives. Under the advice of executives from the IRS business operating divisions and the
Modernization and Information Technology Services organization, the IRS Commissioner
subsequently decided that the IRS would refocus its approach to modernize existing systems.

1
    See Appendix VIII for a glossary of terms.
                                                                                                Page 1
                          Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management



In August 2008, the IRS Commissioner established the Modernized Taxpayer Account Program
Integration Office to manage the transition of taxpayer account processing to the newly
refocused plan for a new modernized environment. To accomplish this transition, Program
Integration Office solution teams were established to consider the use of elements from the
Individual Master File and the current CADE database. A proposed solution involves moving
tax accounts from the Individual Master File and the current CADE database to a new relational
database. This relational database will use some of the current CADE routines and primarily rely
on modifying the Individual Master File to run on a daily rather than a weekly basis. This
reengineering effort has plans to phase out the current CADE and move to a single tax
processing system. It is intended that this relational database will simplify and reduce costs, and
eliminate redundant processing systems.
This review was performed in the Modernization and Information Technology Services
organization in New Carrollton, Maryland, during the period March through August 2009. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. This review was conducted in response to a
request from the Chief Technology Officer for us to assess the Modernized Taxpayer Account
Program Integration Office start-up activities and governance processes. Further, we plan to
provide periodic assessments of this program’s progress and accomplishments. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 2
                             Reengineering Individual Tax Return Processing
                                 Requires Effective Risk Management




                                    Results of Review

The Modernized Taxpayer Account Program Integration Office has taken the lead in
transitioning the current individual income tax processing environment consisting of multiple
computer systems into a single environment for processing tax returns, payments, and other
transactions that affect individual taxpayer accounts. To accomplish this transition, starting in
August 2008, the Program Integration Office began working in conjunction with the IRS
business owners to evaluate several approaches to accomplish its goal. The Program Integration
Office decided to integrate elements from both the existing Individual Master File and current
CADE processes into a new Customer Account Data Engine Strategy. 2 The proposed plan
incrementally transfers taxpayer accounts from the current Individual Master File and CADE
processing environments to a new Customer Account Data Engine relational database. The first
steps involve creating the new database and converting the Individual Master File into a daily
processing environment.

Significant Progress Has Been Made In Developing Conceptual
Models for Future Individual Income Tax Processing
The IRS uses the Enterprise Life Cycle 3 as its standard approach to implement information
systems projects. Prior to project initiation during the Vision and Strategy phase of the
Enterprise Life Cycle, high-level concepts are developed that outline project expectations as they
are envisioned by IRS executives and workers. Conceptual modeling assists in this endeavor by
clarifying the meaning of the various terms and concepts to ensure that problems resulting from
different interpretations do not occur. Adherence to these concepts and disciplines are critical
for the successful and timely completion of projects and programs.
The Program Integration Office and the IRS business owners have made significant progress in
developing conceptual models for 1) the current processing environment, 2) the process that will
be used to transition to a modernized environment, and 3) the future-state business processes.
Major data classes for tax administration (e.g., taxpayer, taxpayer account, notice, and tax
return), along with major data stores (e.g., the Core Data Store, the Individual Account
Operational Data Store, the Integrated Production Model, and the Taxpayer Information File),
have been defined. A strategic framework process has also been developed. This process
describes how the Modernized Taxpayer Account Program Integration Office goals and

2
  The new Customer Account Data Engine Strategy refers to Modernized Taxpayer Accounts Program plans to
transition the Individual Master File and current CADE database to a modernized environment. Current CADE
refers to the database which started processing some individual tax accounts in Calendar Year 2004.
3
  Appendix IV presents an overview of the Enterprise Life Cycle.
                                                                                                      Page 3
                          Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management



objectives will be delivered by relying on a foundation of business, data, architecture, and
technical principles and strategies.

The current individual taxpayer account processing environment
The Individual Master File began processing individual taxpayer accounts in the 1960s, and was
the only IRS system responsible for processing individual taxpayer accounts through
Calendar Year 2003. Beginning in Calendar Year 2004, the current CADE started to process
some individual taxpayer accounts. The Individual Master File and the current CADE share the
responsibility of managing individual taxpayer accounts. Each individual taxpayer account is
active on only the Individual Master File or the current CADE, not on both at the same time.
Presently, the current CADE can process only accounts that are full paid or overpaid, have no
unresolved issues such as a tax liability on the current or prior years, and require no updates
other than address changes. Accounts on the current CADE that do not meet these requirements
are returned to the Individual Master File for processing.
Long-term system requirements issues challenged the current CADE project.
   •   The current CADE processing system requires a large amount of capacity for both the
       storage and retrieval of data. Future releases with more complex accounts are estimated
       to both significantly increase the need for additional capacity and increase complexity of
       the processing.
   •   The ability of the current CADE to access historical taxpayer account information
       currently residing on the Individual Master File had to be resolved to enable requirements
       for future developed releases.
   •   The expectation of significant increases in current CADE taxpayer population, processing
       capacity, and data storage required consideration to meet future operational needs. The
       engineering staff performed the last formal study of current CADE processing capacity in
       Calendar Year 2004 and had not determined the long-term processing capacity
       requirements.
Current CADE and the Individual Master File must interact with the Integrated Data Retrieval
System and each other every time an account on the current CADE is returned to the Individual
Master File. Sustaining parallel operation and maintenance on dual systems is far more complex
and costly than managing either one of them alone. Each successive release of the current
CADE adds taxpayer accounts with increasingly more difficult issues, such as those resulting
from adjustments, unpaid assessments, examinations, bankruptcy, installment agreements, and
penalties.
Financial integrity is also at risk. Future releases will move billions of dollars between the
Individual Master File and the current CADE, exposing the IRS to the potential for lost revenue
and/or uncontrolled accounts during the transfer. For example, accounts with unpaid

                                                                                               Page 4
                         Reengineering Individual Tax Return Processing
                             Requires Effective Risk Management



assessments and/or excess credits that are in the current CADE potentially could be returned to
the Individual Master File. Appendix V presents a flowchart of the current processing
environment.

The transition to a new modernized environment
The focus of the Modernized Taxpayer Account Program Integration Office is to move the IRS
away from operating in two tax processing environments while positioning the IRS for more
significant reengineering of the tax account management process in the future. The Program
Integration Office strategy for improving individual taxpayer account processing involves three
transition states:
   •   Transition State 1 will modify the Individual Master File to run daily (currently
       individual taxpayer accounts are processed on a weekly basis) and establish a new
       relational database. The IRS plans to implement Transition State 1 in January 2012.
   •   Transition State 2 will use a single set of applications and address previously identified
       financial material weaknesses. In its Fiscal Year 2008 Financial Audit Report of the IRS,
       the Government Accountability Office reported that the “IRS faces serious challenges
       from its continued use of obsolete financial management systems that do not conform to
       the requirements of the Federal Financial Management Integrity Act.” The IRS plans to
       implement Transition State 2 in January 2014.
   •   Target State will consist of a single system using elements of the Individual Master File
       and the current CADE and will eliminate all transitional applications such as those used
       to link the current CADE, the Individual Master File, and the Integrated Data Retrieval
       System. Although the IRS had an early estimate to implement the Target State by 2015,
       it is now performing additional analysis to establish an estimated completion date.
Appendix VI presents the conceptual models of each transition state.
Upon completion, individual tax account processing applications will access and update taxpayer
data using the new relational database. The relational database will be the single system of
record for all individual taxpayer accounts. Accounts will be updated and settled within 24 hours
to 48 hours, and subsequently synchronized with other systems. The system will provide
financial management services for all individual taxpayer accounts and mechanisms will be in
place to ensure data privacy and integrity.

The future state of managing individual taxpayer accounts
A team made up of Program Integration Office staff and IRS business owners representing a
broad cross-section of different IRS perspectives defined a high-level future-state business
process flow for the management of individual taxpayer accounts. The business process
activities are presented in Figure 1.

                                                                                          Page 5
                           Reengineering Individual Tax Return Processing
                               Requires Effective Risk Management



                        Figure 1: Business Process Flow Activities




Source: Manage Taxpayer Accounts Core Team Report, dated February 25, 2009.

Accept and Validate Input – Validate and balance transactions and files, transform data for
subsequent processing, and store inbound reference data for use by other processes.
Post Transactions to Taxpayer Accounts – Detect, validate, and store new taxpayer account
information.
Perform Financial Settlement – Compute balances, allocate credits to debits, compute and post
penalty and interest transactions, perform financial offsets, update account status, create and post
refund transactions, record accruals, and create deferred actions.
Analyze Accounts – Identify and update conditions present on taxpayer accounts for subsequent
processing.
Execute Post-Settlement Actions – Detect notice conditions and request notice creation, detect
a refund transaction and request funds disbursement when appropriate, and create transcripts
based on detection of specific conditions.
Provide Taxpayer Account Information – Provide taxpayer account information for use by
other IRS and external processes.
The Modernized Taxpayer Account Program Integration Office objectives for the new Customer
Account Data Engine Strategy are to:
    •   Process tax returns, payments, and other transactions that affect individual taxpayer
        accounts in a single environment.
    •   Update and settle individual accounts within 24 hours to 48 hours with current, complete,
        and authoritative data, and provide employees with access in a timely manner.
    •   Address known financial audit and computer security weaknesses.
    •   Improve long-term viability of the individual taxpayer account processing solution.
The Program Integration Office expects the new Customer Account Data Engine Strategy to
reduce risks and costs that exist from operating in two environments for individual taxpayer
account processing. It also plans to modernize the individual taxpayer account processing
environment to be consistent with private financial institutions, including appropriate security
and privacy standards.

                                                                                             Page 6
                          Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management



Identified Risks Must Be Effectively Managed for Successful
Implementation of the New Customer Account Data Engine Strategy
The Program Integration Office solution teams, working in conjunction with the IRS business
owners, have identified risks that must be managed to allow the success of the new Customer
Account Data Engine Strategy. The solution teams have prepared high-level risk management
strategies for each risk. To facilitate the risk management strategy planning process, the
solutions teams have grouped each risk into the following categories: Audit Risk (1 issue),
Delivery Risks (11 issues), Funding and Schedule Risks (2 issues), Operational Risks (3 issues),
People Risks (4 issues), and Technical/Complexity Risks (4 issues). Appendix VII presents a
description of these Program risks.
A formal Risk Management Plan to track, control, validate, and analyze each identified risk will
ensure that the risks are successfully resolved. When risks are not successfully resolved in a
timely manner, schedule and/or cost may be negatively affected. Depending on the level of the
risk, an unresolved risk could jeopardize the success of an entire Program.
The solution teams have identified several risks that fall into this high-risk category. For
example, key stakeholders must actively participate in the decision-making process. This will
ensure that changes made to processes and services take into account the customer’s perspective.
In addition, the IRS employee and contractor resource capacity must be closely monitored to
ensure that simultaneous demands for requirements, development, test, and production systems
are met in a timely manner. Effective scope management has been an ongoing modernization
concern. If scope is not rigorously managed, the Modernized Taxpayer Account Program’s
ability to deliver intended benefits may be jeopardized.
Other high-level risks include adequate performance and funding. If the new Customer Account
Data Engine does not meet system performance requirements for peak volume with reasonable
capacity, individual tax return processing may be put at risk. And without sufficient funding, the
delivery schedule will be delayed, negatively affecting taxpayers by not providing benefits such
as faster refunds.

Challenges Facing the New Program Integration Office Must Be
Addressed
While conceptual modeling and risk identification are required first steps, the Program
Integration Office and business owners need to develop, validate, and implement the
reengineering concepts, as well as manage the identified risks. Following are some challenges
we believe that the Program Integration Office must address to effectively manage these risks:
   •   Ensuring support for the modernization efforts from other critical IRS organizations, such
       as the Modernization and Information Technology Services organization and other
       business units. An issue the current Business Systems Modernization program had to
                                                                                           Page 7
                         Reengineering Individual Tax Return Processing
                             Requires Effective Risk Management



       overcome was that IRS personnel were not fully engaged in the initial program design
       and development processes. The challenge is to engage all relevant IRS subject matter
       experts in building the new system by including them in the new Customer Account Data
       Engine Strategy.
   •   Implementing a governance structure for the Program Integration Offices to provide
       oversight and direction for the implementation of the new Customer Account Data
       Engine Strategy. For example, will the existing Executive Steering Committee
       responsibilities carry over to the new strategy, or will the new strategy demand a
       re-scoping of the Executive Steering Committee responsibilities?
   •   Employing enough competent technical resources to modify the Individual Master File
       and current CADE programs, while continuing to keep the current systems operating.
   •   Deciding on the development programming language(s) to be used by the end-state single
       system.
   •   Deciding on the hardware platform(s) to be used by the end-state single system.
   •   Ensuring the end-state single system is cost-effectively designed to minimize processing
       capacity demands and storage requirements.
   •   Developing a strategy for addressing potential questions and concerns by Congress, the
       IRS Oversight Board, and other stakeholder groups about the refocused Modernization
       plans and transitional activities. For example, the strategy could focus on potential
       concerns such as ensuring adequate funding for the new plans and addressing the possible
       perception that the transitional step of retiring the current CADE and moving back to
       Master File processing, even if done on daily basis, might look like a step backward.
   •   Developing contingency plans in the event that the new Customer Account Data Engine
       Strategy cannot be fully implemented. For example, what are the options if the
       Individual Master File programs cannot be modified to run daily, or as frequently as
       needed?
In addition to the risks identified by the Program Integration Office and the IRS business owners,
and the challenges facing the Program Integration Office, both groups need to work together to
address the following procedural issues.
Program Management Office Framework – Management processes and controls need to be
established requiring coordination and input from the Program Integration Office, the business
owners, and the Modernization and Information Technology Services organization to ensure a
smooth transition to the new Customer Account Data Engine Strategy.
Enhancement Requests to Existing Systems – A process to manage enhancement requests such
as system upgrades from the business owners for all current systems affected by the new

                                                                                           Page 8
                          Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management



Customer Account Data Engine Strategy need to be developed. This also includes establishing
controls to identify and manage multisystem interdependent requirements and the effect the
requests will have on the new Customer Account Date Engine Strategy.
Unless sufficient time and resources are provided to address each of these challenges and
procedural issues that are needed to support the Modernized Taxpayer Account Program
Integration Office goals and objectives, the new Customer Account Data Engine Strategy will be
unable to process tax returns for all individual taxpayers as planned.

A Long-Term Commitment Is Needed by Current and Future
Executives to Ensure Modernization Program Success
In September 1996, after intense scrutiny from Congress based on prior unsuccessful attempts to
modernize its systems, the IRS agreed to use a contractor to design and build the Business
Systems Modernization program. Congress issued this directive after the IRS was unsuccessful
in modernizing its computer systems for more than 20 years. Specifically,
   •   From 1973 through 1978, the IRS conducted the Tax Administration System of the 1970s
       program. Funding was denied in Fiscal Year 1977 due to questions over costs and
       benefits, and the program was terminated in Fiscal Year 1978.
   •   In early 1982, the IRS began new efforts to redesign the tax administration system
       through the “Tax System Redesign” program. However, none of the approaches to
       modernization (pursued from 1982 through 1986) progressed beyond the planning stage,
       resulting in part, according to the Government Accountability Office, from repeated
       changes in leadership at the IRS and the Department of the Treasury, a lack of clear
       management responsibility for the program, and the need for enhanced technical and
       managerial expertise within the agency’s ranks.
   •   In 1986, the IRS initiated the Tax Systems Modernization program that planned to
       upgrade existing systems and provide additional computer capacity. However, the IRS
       could not explain to Congress how these projects would eventually come together to meet
       the long-term goals and objectives. Congress eventually cut the Tax Systems
       Modernization program budget in Fiscal Year 1996 due partly to concerns about the
       value of program investments to date and the minimal progress in delivering new
       systems.
In December 1998, the IRS awarded its PRIME contract for systems modernization and relied on
the PRIME contractor to act as a systems integrator to find and manage the best expertise and
technical resources to achieve the IRS’ organizational goals. However, the PRIME contractor,
acting in its role as systems integrator, did not make the best use of IRS subject matter experts to
understand and document the IRS’ current processing environment. In January 2005, due to
budget reductions and concerns about the adequacy of the PRIME contractor’s performance, the

                                                                                             Page 9
                         Reengineering Individual Tax Return Processing
                             Requires Effective Risk Management



IRS transitioned many activities from the PRIME contractor by taking over the primary role as
the systems integrator for all projects.
If the IRS and the PRIME contractor had made better use of IRS expertise during the initial
start-up of the Business Systems Modernization effort in 1999 and performed similar conceptual
modeling and risk identification as described earlier in this report, the refocusing of current
modernization efforts may not have been needed. Successful completion of the new Customer
Account Data Engine Strategy will require a long-term commitment from both current and future
IRS executives to maintain the modernization direction and goals.
Past attempts by the IRS to modernize its computer systems have been affected by changes
introduced by new senior level executives. While some changes are inevitable due to evolving
technologies and changing environments, consistency in Program direction and goals is critical
for successful completion. To promote Program continuity, senior executives should continue to
use the Information Technology Modernization Vision and Strategy framework as a baseline for
Modernization Program decision making. The Information Technology Modernization Vision
and Strategy, if adhered to, provides executives the ability to achieve the current and planned
modernization plans.
       Management’s Response: The Chief Technology Officer responded with
       appreciation for our acknowledgement that the Modernization and Information
       Technology Services Program Integration Office and the IRS business owners have made
       significant progress in developing conceptual models for the current processing
       environment, the process to transition to the modernized environment, and the
       future-state business processes. The Chief Technology Officer further noted that the
       report assessment was valid and that the detailed program plan, being developed as we
       suggested with the Modernization Vision and Strategy framework, may result in
       adjustments to target deliverables and time periods including elimination of redundant
       processing systems.




                                                                                       Page 10
                                 Reengineering Individual Tax Return Processing
                                     Requires Effective Risk Management



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the adequacy of the Modernized Taxpayer
Account Program Integration Office start-up activities to manage the transition of taxpayer
account processing to a new modernized environment. To accomplish this objective, we:
I.         Determined the background and purpose for the IRS’ creation of the Modernized
           Taxpayer Account Program Integration Office.
           A. Reviewed the prior Treasury Inspector General for Tax Administration and
              Government Accountability Office audit reports on IRS modernization efforts.
           B. Reviewed internal reports, technical assessments, and studies conducted by the IRS
              related to current and future modernization efforts.
           C. Reviewed external reports, technical assessments, and other studies of IRS
              modernization efforts, including those on Program Integration Office plans,
              conducted by non-Government entities.
           D. Reviewed meeting minutes and decisions from governance bodies such as the
              Customer Service Executive Steering Committee 1 and the Modernize Taxpayer
              Accounts Executive Steering Committee.
II.        Determined the goals and objectives of the Modernized Taxpayer Account Program
           Integration Office and the new Customer Account Data Engine Strategy.
           A. Reviewed Program charters, governance documents, program life cycle methodology,
              and strategic framework proposals related to the Modernized Taxpayer Account
              Program Integration Office and the new Customer Account Data Engine Strategy.
           B. Assessed the overall approach of the proposed governance structure of the
              Modernized Taxpayer Account Program Integration Office.
           C. Reviewed documentation of solution planning and oversight meetings and meeting
              minutes related to Modernized Taxpayer Account Program Integration Office start-up
              activities and the new Customer Account Data Engine Strategy.
           D. Analyzed external reports prepared by non-Government entities for findings and
              recommendations related to the Modernized Taxpayer Account Program Integration
              Office and the new Customer Account Data Engine Strategy.

1
    See Appendix VIII for a glossary of terms.
                                                                                            Page 11
                        Reengineering Individual Tax Return Processing
                            Requires Effective Risk Management



       E. Analyzed internal reports, technical assessments, and studies conducted by the IRS
          related to the Program Integration Office and the new Customer Account Data Engine
          Strategy.
III.   Determined the adequacy of the process to estimate the cost to implement the new
       Customer Account Data Engine Strategy.
       A. Reviewed the latest IRS Budget Request.
       B. Reviewed the latest Business Systems Modernization Expenditure Plan.
       C. Reviewed the latest Program Integration Office Basis of Estimate for cost and
          schedule.




                                                                                          Page 12
                        Reengineering Individual Tax Return Processing
                            Requires Effective Risk Management



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Charlene L. Elliston, Senior Auditor
Bruce Polidori, Senior Auditor




                                                                                     Page 13
                       Reengineering Individual Tax Return Processing
                           Requires Effective Risk Management



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CTO:CIO
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CTO:SM
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CTO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CTO:ES:SI
Director, Requirements and Demand Management OS:CTO:SP:DM
Director, Stakeholder and Management OS:CTO:SP:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Technology Officer OS:CTO
       Commissioner, Wage and Investment Division SE:W
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Senior Operations Advisor, Wage and Investment Division SE:W:S
       Director, Requirements and Demand Management OS:CTO:SP:DM
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                                 Page 14
                          Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management



                                                                                 Appendix IV

                    Enterprise Life Cycle Overview

The Enterprise Life Cycle is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the phases and milestones within the Enterprise Life Cycle. A
phase is a broad segment of work encompassing activities of similar scope, nature, and detail and
providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting and
ends with an executive management decision point (milestone) at which IRS executives make
“go/no-go” decisions for continuation of a project. Project funding decisions are often associated
with milestones.




                                                                                          Page 15
                              Reengineering Individual Tax Return Processing
                                  Requires Effective Risk Management



                   Figure 1: Enterprise Life Cycle Phases and Milestones

              Phase                             General Nature of Work                     Milestone
 Vision and
                                    High-level direction setting. This is the only
 Strategy/Enterprise                                                                           0
                                    phase for enterprise planning projects.
 Architecture Phase
 Project Initiation Phase           Start-up of development projects.                          1
                                    Specification of the operating concept,
 Domain Architecture Phase                                                                     2
                                    requirements, and structure of the solution.
 Preliminary Design Phase           Preliminary design of all solution components.             3
 Detailed Design Phase              Detailed design of solution components.                   4A
                                    Coding, integration, testing, and certification of
 System Development Phase                                                                     4B
                                    solutions.
                                    Expanding availability of the solution to all target
 System Deployment Phase            users. This is usually the last phase for                  5
                                    development projects.
 Operations and Maintenance                                                                 System
                                    Ongoing management of operational systems.
 Phase                                                                                     Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                               Page 16
                                 Reengineering Individual Tax Return Processing
                                     Requires Effective Risk Management



                                                                                           Appendix V

                         Current Processing Environment

Figure 1 presents a high-level depiction of the current processing environment for individual tax
accounts.
                             Figure 1: Individual Tax Return Processing




       CPE–Current processing environment; 1 IDRS–Integrated Data Retrieval System; IMFOL/LAFFOL– Individual
       Master File On-Line Processing/Legacy Account Formatted File On-Line.
       Source: Manage Taxpayer Accounts Core Team Report, dated February 25, 2009.

       •   Most transactions for individual taxpayer accounts are processed through Submission
           Processing systems; however, a few transaction types bypass Submission Processing.
       •   The Individual Master File and the current CADE share the responsibility of managing
           individual taxpayer accounts.
       •   When the current CADE detects any transaction or condition that it cannot address, it
           executes a process known as Return to Current Processing Environment to return the
           management and data of that individual taxpayer account to the Individual Master File.

1
    See Appendix VIII for a glossary of terms.
                                                                                                   Page 17
                      Reengineering Individual Tax Return Processing
                          Requires Effective Risk Management



•   The Individual Master File extracts data on a weekly basis to the Individual Master File
    On-Line data store. As the current CADE processes transactions, it supplies data in
    Individual Master File format to the Legacy Account File Format On-Line. These two
    data stores are for read-only access of taxpayer account information.
•   Both the Individual Master File and the current CADE provide data for multiple extracts,
    reports, and updates to downstream systems.
•   The Individual Master File provides data to the Integrated Data Retrieval System for
    synchronization of information for selected accounts.




                                                                                      Page 18
                                                        Reengineering Individual Tax Return Processing
                                                            Requires Effective Risk Management



                                                                                                                                                                         Appendix VI

                                                                             Transition States

Figures 1, 2, and 3 present conceptual models for future individual income tax processing.
                                                Figure 1: Transition State 1 Processing Plan
Customer Account Data Engine Transition State 1: Daily Processing
                                             Unpostable Transactions
                                                  To Campus


                    Arch
                     ive                         IMF

     Input Transactions
                             Pre-Processing                    Posting/                  Analysis/             Post-Analysis                            Daily Extracts
      From Campuses
                                (460-02 to                    Settlement                Settlement            (460-43, 780-63,
                                 460-11)                          (460-12)               (460-15)               780-77, etc.)


                                                                                                                                                Output Merger
                           Resequenced Transactions                           IMF                      IMF                                      (Merge daily             Weekly Extracts
                                                                                                                                                 outputs for
                                                                                                                                                weekly feed)
                                                                                                                Data Update
                                                                                                               (Daily Update)




                          Account Viewing                                                                                                                    Extract TIF
                            Read Only                   Initial              Customer Account Data Engine                        IDRS Extract
                                                        Data                                                                                              Accounts To IDRS
         Viewing                                       Access                         Database
                          (Corporate Files
                                                        Layer
                             On-Line)




            Key                 Target Component                                    Modified/Extended Current Component                         Transitional Data Transformations



CFOL–Corporate Files On-Line; 1 IMF–Individual Master File; TIF–Taxpayer Information File
Source: IRS Customer Account Data Engine presentation to the Treasury Inspector General for Tax Administration
staff, dated August 6, 2009.




1
    See Appendix VIII for a glossary of terms.
                                                                                                                                                                                           Page 19
                                               Reengineering Individual Tax Return Processing
                                                   Requires Effective Risk Management



                                       Figure 2: Transition State 2 Processing Plan

Transition State 2: Address Financial Weaknesses & Using the Database

                              Unpostable Transactions                                    Financial Settlement
                                                                                                                                    Post-Processing
                  Resequenced Transactions                                                                           P&I
                                                                                               Financial
                                                                                                                                        Disbursements
                                                                                              Settlement                                                          Refunds
                                                        Transaction Posting
                          Pre-Processing                                                      & Accruals
                                                                                                                     Date Calc
                                                           Tax Assessments                                                                                        Notices
                                                               (TCPosting
                                                                   150)                                                                       Notice
                                                             150
                                                                                                                                            Generation
                              Pre-Processing                                                                                   Financial Settlement
 Input Transactions                                           ExtensionsM
  From Campuses                                                (TC 460)                          Analysis                                                          Transcripts
                                                                                                                                                Transcript
                                                                                                                                                Generation
                                                            Miscellaneous                            Collections Analysis
                                                              (TC 971)

                                                                                                            Account Analysis
                                Activation
                                 Extract/                   Modified Run 12                                 N
                                                             Modified IMF
                                Transform                                                                        Diagnostics
                                                               460-12



                                                             Transform &
                                                            Load Database
                                                                                                                Data Transformation
                                                                                                                                                          Data Distribution


                                                                                    Data Access Layer &                                                      IDRS Extract
                                                                               Customer Account Data Engine
                                                                                         Database                                                             IPM Extract

                                                                                                                                                              Operational
                                                                                        Database Replication                                                   Reports
 On-line Access                     Account
                                     Locator
             View                   and Data                                                                                                                   Extracts to
                                     Access                                      Customer Account Data Engine                                                other systems
           Individual
                                     Service                                      Active Operational Data Store
           Accounts

                                                                                                                               All applications to meet to IRS Security Standards.

      Key               Target Component          Modified/Extended Current Component           Option: Either modified or target       Transitional Data Transformations


IPM–Integrated Production Model
Source: IRS Customer Account Data Engine presentation to the Treasury Inspector General for Tax
Administration staff, dated August 6, 2009.


       .




                                                                                                                                                                     Page 20
                                             Reengineering Individual Tax Return Processing
                                                 Requires Effective Risk Management



                                             Figure 3: Target State Processing Plan

Target: Component Based Applications & Services Directly Using the Database

                          Unpostable Transactions
                                                                                                                              Post-Processing
                                                                                Financial Settlement
              Resequenced Transactions
                                                                                                             P&I                 Disbursements             Refunds
                                                                                      Financial
                                                    Transaction Posting
                      Pre-Processing                                                 Settlement
                                                       Tax Assessments               & Accruals
                                                                                                             Date Calc                 Notice              Notices

                                                          Extensions                                                                 Generation
                          Pre-Processing
 Input Transactions
                                                        Disaster Trans.
  From Campuses                                                                           Analysis                                                          Transcripts
                                                                                                                                         Transcript
                                                           Payments                                                                      Generation
                                                                                              Collections Analysis
                                                           Collection

                                                          Adjustments                                Account Analysis

                                                          Exam Trans
                                                                                                            Diagnostics
                                                          Entity Trans.

                                                             Others



                                                                                                                                                   Data Distribution


                                                                              Data Access Layer &                                                     IDRS Extract

                                                                          Customer Account Data Engine                                                 IPM Extract
                                                                                   Database
                                                                                                                                                       Operational
                                                                               Database Replication                                                     Reports
 On-line Access
                                       Account
          View                          Locator                                                                                                         Extracts to
        Individual        Read-only    and Data                            Customer Account Data Engine                                               other systems
        Accounts                        Access                              Active Operational Data Store
                                        Service
                                                                                                                        All applications to meet to IRS Security Standards.

      Key         Target Component


Source: IRS Customer Account Data Engine presentation to the Treasury Inspector General for Tax Administration
staff, dated August 6, 2009.




                                                                                                                                                             Page 21
                                 Reengineering Individual Tax Return Processing
                                     Requires Effective Risk Management



                                                                                 Appendix VII

        Risks Facing the Modernized Taxpayer Account
                  Program Integration Office

The following high-level risks identified by the Modernized Taxpayer Account Program
Integration Office solution teams affect development and implementation of the new Customer
Account Data Engine Strategy.

Audit Risk
Balance and Control – The balancing, control, and reconciliation process is crucial for the IRS
to ensure the data integrity of the taxpayer information brought into the current CADE. The risk
associated with the balancing, control, and reconciliation process makes it difficult to maintain a
clean audit opinion because taking the current CADE out of production has implications which
result in loss of some capabilities for addressing financial material weaknesses.

Delivery Risks
Identification of Business Requirements – The ability to identify business requirements from
Individual Master File 1 applications is very difficult because the application design
documentation is not always available.
Comprehensive Test Strategy – New approaches to testing are required to ensure that all
business requirements are tested.
Having Decisions Stick Is a Challenge – If key stakeholders are not part of the decision
process, intended results may be in jeopardy.
Information Technology Versus Business Driven Program – Even though the business
owners from the Wage and Investment and the Small Business/Self-Employed Divisions are
participating in the Modernized Taxpayer Account Program, they are not driving the solution
from a business perspective and it may be difficult to ensure they stay fully engaged. The
business processes and services are not changing from a customer prospective.
Not Enrolling Suppliers – Not enrolling key vendors and taking advantage of their expertise in
the development effort may affect the ability to deliver Modernized Taxpayer Account Program
goals. For example, current CADE experts are primarily external contractors and the challenge



1
    See Appendix VIII for a glossary of terms.
                                                                                           Page 22
                          Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management



is to integrate the current CADE experts with the Individual Master File experts, which are IRS
employees.
Parallelism, Overlap Between Transition States – To achieve the target solution in a
reasonable time period requires parallel development of multiple transition states. Simultaneous
demands for requirements, development, test, and production systems may exceed resource
capacity.
Program Authority – If a Modernized Taxpayer Account Program does not have the authority
to make day-to-day decisions that affect scope, budget, technical solution, and quality, then the
ability to deliver the Customer Account Data Engine Strategy may be negatively affected.
Program Integration – The IRS does not have mature processes for developing integrated
technical solutions at the enterprise and Program levels. Integration across multiple projects
presents a risk of not identifying inter-project dependencies, which will result in parallel work
inefficiencies. The Program Lifecycle is a newly defined model within the IRS and will require
significant effort to implement.
Scope Management – If scope is not rigorously managed, the Program’s ability to deliver
agreed to capabilities may be jeopardized.
Transition Software Costs – Software used to link the current CADE, the Individual Master
File, and the Integrated Data Retrieval System during the transition process will no longer be
required upon completion of the end-state target system. The acquisition of transition software,
if not properly monitored, could negatively affect development costs and increase the complexity
of the technical solution.
Yearly Filing Season Changes – Long development time periods require that the IRS
implement yearly tax law changes in applications and databases while simultaneously
performing development work. Yearly tax law changes may affect the Program delivery
schedule.

Funding and Schedule Risks
External Constraints – The inability to move Business Systems Modernization program funds
within the Modernized Taxpayer Account Program without Congressional approval hampers the
ability to deliver the new Customer Account Data Engine Strategy.
Funding the Program – Not fully funding the Modernized Taxpayer Account Program could
delay the delivery schedule.

Operational Risks
Data Cleanup and Account Cleanup – Invalid individual taxpayer account conditions currently
residing on processing systems constrain the development effort.

                                                                                           Page 23
                          Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management



Filing Season Readiness – Each year, the IRS plans specific, detailed action items to ensure
preparations are made for the IRS to effectively perform in the upcoming filing season. This
plan requires IRS operational organizations to be in a state of readiness to identify, surface, and
elevate any barriers that may jeopardize a successful filing season. Filing season readiness
responsibilities must not be forgotten.
Not Making Progress Against Financial Material Weaknesses – Current CADE capabilities
such as the balancing, control, and reconciliation process meet Federal Financial Management
Systems Requirements guidelines and address financial material weaknesses. Taking the current
CADE out of production has implications that will result in the loss of some capabilities that
address financial material weaknesses.

People Risks
Appropriate Leadership and Governance – If appropriate leadership and governance are not
established within the Modernized Taxpayer Account Program, the Program may be unable to
deliver promised capabilities.
Critical Skill Constraints – Resource contention over knowledgeable and skilled IRS
employees and contractors may affect the Program Integration Office requirements.
Gaining Organizational Alignment and Commitment – Given the history of Business
Systems Modernization, consistent turnover of leadership, and sensitivity to external perceptions,
there is a possibility that the Modernized Taxpayer Account Program will not have active
support from the necessary stakeholders needed to complete the Program.
Readiness to Leverage Data – Inadequate preparation from the Wage and Investment and the
Small Business/Self-Employed Divisions and the Modernization and Information Technology
Services organization to fully take advantage of relational database capabilities, such as easy
access and reassembly of data, may result in missed opportunities in providing improved account
management services to IRS employees.

Technical/Complexity Risks
Architectural Issues – Architectural issues present within the Individual Master File
(e.g., financial material weaknesses imbedded in current Assembler Language Code
applications) and the current CADE (e.g., processing inefficiencies) must be addressed to ensure
short-term and long-term tradeoffs are considered.
Development Language and Architectural Platform – The current plan to move to Java
programming language poses a risk because the solution team has not fully assessed the technical
implications of this decision.




                                                                                            Page 24
                         Reengineering Individual Tax Return Processing
                             Requires Effective Risk Management



End-to-End Performance – If the end-state solution does not meet system performance
requirements for peak volume with reasonable capacity, individual tax return processing may be
jeopardized.
Identification of Security Requirements – The technical solution must adhere to Federal
Government and IRS security guidelines.




                                                                                       Page 25
                          Reengineering Individual Tax Return Processing
                              Requires Effective Risk Management



                                                                             Appendix VIII

                               Glossary of Terms

Term                            Definition
Account Management Services     A project that provides an integrated approach to view, access,
                                update, and manage taxpayer accounts.
Computing Center                Supports tax processing and information management through
                                a data processing and telecommunications infrastructure.
Core Data Store                 Provides the system of record for all tax return processing that
                                replaces the tape-based Master File systems and the current
                                CADE system.
Corporate Files On-Line         This system provides online transactional access to Individual
                                and Business Master File data, Information Return Program
                                data, and various other related data collections. These files
                                are accessed via IRS-developed Customer Information
                                Control System command codes.
Current Processing              The IRS’ existing entire Information Technology environment
Environment                     including business applications, data stores, data interfaces
                                and processing flows, infrastructure, and Information
                                Technology services, as well as involved organizations,
                                locations, processes, policies, and people.
Cycle                           A 7-day processing period (usually from Sunday to Saturday)
                                measurement used by the IRS.
Enterprise Life Cycle           A structured business systems development method that
                                requires the preparation of specific work products during
                                different phases of the development process.
Executive Steering Committee    Oversees investments, including validating major investment
                                business requirements and ensuring that enabling technologies
                                are defined, developed, and implemented.
Filing Season                   The period from January through mid-April when most
                                individual income tax returns are filed.




                                                                                        Page 26
                            Reengineering Individual Tax Return Processing
                                Requires Effective Risk Management




Term                              Definition
Individual Account                Provides a high-availability store used to allow applications
Operational Data Store            access to view individual taxpayer account information not
                                  stored on the Taxpayer Information File.
Individual Master File            The IRS database that maintains transactions or records of
                                  individual tax accounts.
Individual Master File On-Line This system provides online transactional access to Individual
Processing                     Master File data. See Glossary for Corporate Files On-Line.
Information Technology            Establishes a 5-year plan that drives investment decisions;
Modernization Vision and          addresses the priorities around modernizing front-line tax
Strategy                          administration and supporting technical capabilities; and
                                  leverages existing systems (where possible) and new
                                  development (where necessary) to optimize capacity, manage
                                  program costs, and deliver business value on a more
                                  incremental and frequent basis.
Infrastructure                    The fundamental structure of a system or organization. The
                                  basic, fundamental architecture of any system (electronic,
                                  mechanical, social, political) determines how it functions and
                                  how flexible it is to meet future requirements.
Integrated Data Retrieval         An IRS mission-critical system consisting of databases and
System                            programs supporting IRS employees working active tax cases.
                                  It manages data retrieved from the Master File, allowing IRS
                                  employees to take specific actions on taxpayer account issues,
                                  track status, and post updates back to the Master File.
Integrated Production Model       Intended to be a data store to meet IRS needs for data
                                  analytics and long-term reporting and as a source for other
                                  types of analytic data that supplement the transactional core
                                  data store.




                                                                                          Page 27
                      Reengineering Individual Tax Return Processing
                          Requires Effective Risk Management




Term                        Definition
Legacy Account Formatted    At the beginning of each processing year, accounts from the
File On-Line                Individual Master File are reviewed to determine whether they
                            are current CADE eligible (i.e., if the incoming tax return for
                            the account is likely to be one that the current CADE can
                            process). Prior year tax modules for accounts that are
                            considered current CADE eligible are moved from the
                            Individual Master File to the Legacy Account Formatted File
                            On-Line area of the current CADE database. Tax modules
                            that were initiated and settled in the Individual Master File
                            and then moved to the Legacy Account Formatted File
                            On-Line remain in the Individual Master File format.
Master File                 The IRS database that stores various types of taxpayer account
                            information. This database includes individual, business, and
                            employee plans and exempt organizations data.
Notice                      A computer-generated message resulting from an analysis of
                            the taxpayer’s account on the Master File.
PRIME Contractor            The Computer Sciences Corporation, which heads an alliance
                            of leading technology companies brought together to assist
                            with the IRS’ efforts to modernize its computer systems and
                            related information technology.
Program Life Cycle          The Program Life Cycle is designed to be a generic life cycle
                            applicable to most information technology focused programs,
                            though it is being developed initially for the new Customer
                            Account Data Engine Strategy.
Relational Database         A relational database is a collection of data items organized as
                            a set of formally described tables from which data can be
                            accessed or reassembled in many different ways without
                            having to reorganize the database tables.
Release                     A specific edition of software.




                                                                                    Page 28
                        Reengineering Individual Tax Return Processing
                            Requires Effective Risk Management




Term                          Definition
Strategic Framework           Describes how Modernized Taxpayer Account Program goals
                              and objectives will be delivered by relying on principles and
                              strategies that include the Business Architecture, the Data
                              Architecture, the Application Architecture, and the
                              Technology Architecture. Each of these is supported by the
                              policies and processes related to Security and Privacy, Human
                              Capital Management, Program and Project Management, the
                              Enterprise Life Cycle, and Requirements.
Submission Processing         Submission Processing includes the filing of both paper and
                              electronic tax returns and the initial capture of tax revenues.
                              Submission Processing plays an important role in both service
                              and enforcement. As the first contact point for most
                              taxpayers, public perceptions about service are established.
                              From an enforcement standpoint, data capture and up-front
                              issue detection and resolution contribute to effective tax law
                              enforcement.
Taxpayer                      Taxpayer information includes the taxpayer identification
                              number, taxpayer name, name history, addresses, and
                              information or conditions that affect the IRS’ relationship with
                              the taxpayer.
Taxpayer Account              The data about a taxpayer’s tax obligations with the IRS for
                              specific tax periods. A taxpayer’s account is divided into tax
                              modules—a separate tax module for each type of tax and tax
                              period. Each tax module includes the tax assessments,
                              payments, penalties, interest assessments, adjustments, status
                              history, notice history, freezes, audit transactions, collection
                              transactions, memo transactions, etc.
Taxpayer Information File     Provides information to the Customer Service and Compliance
                              processes, which are often the source of account transactions.
Tax Return                    Information filed by a taxpayer and signed under penalty of
                              perjury that this is true and accurate information which is
                              required to calculate the correct tax and credits.
Vision and Strategy           The phase that translates the fundamental business strategy
                              into a transformation strategy for business processes,
                              information technology, and organizational change.


                                                                                       Page 29
        Reengineering Individual Tax Return Processing
            Requires Effective Risk Management



                                                 Appendix IX

Management’s Response to the Draft Report




                                                         Page 30
